           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    ACCURACY OF DIAGNOSIS CODES
       IN THE SOCIAL SECURITY
     ADMINISTRATION’S DATABASES


    December 2010   A-06-09-19128




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      December 8, 2010                                                              Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Accuracy of Diagnosis Codes in the Social Security Administration’s Databases
           (A-06-09-19128)


           OBJECTIVE
           Our objective was to determine the validity of disability diagnosis codes that appeared
           on the Social Security Administration’s (SSA) payment records.

           BACKGROUND
           The Disability Insurance program was established in 1956 under Title II of the Social
           Security Act. It was designed to provide benefits to disabled wage earners and their
           families. In 1972, Congress enacted the Supplemental Security Income (SSI) program
           under Title XVI of the Social Security Act. The SSI program provides a minimal level of
           income to financially needy individuals who are aged, blind, or disabled.

           The disability diagnosis code is an integral part of each disabled individual’s permanent
           record. The four-digit numeric code is used to identify the basic medical condition that
           rendered the individual disabled. Once established, the diagnosis code appears on the
           Master Beneficiary Record (MBR), Supplemental Security Record (SSR), and Disability
           Control File (DCF). The diagnosis code is a vital part of the disability process, not only
           for the substantive decision, but also for disability data collection and future processing.
           Therefore, it is necessary that, before coding, the reviewing physician/examiner team
           accurately determine the correct nature of the principal impairment(s) upon which the
           favorable decision is based. 1

           SSA uses the diagnosis code along with other fields for a variety of purposes, such as
           determining the timing and nature of continuing disability reviews (CDR). For example,
           section 221(i) of the Social Security Act2 requires continuing eligibility reviews for

           1
            SSA, Program Operations Manual System, DI 28085.115, Function of the Examiner/Physician Team in
           Determining the Appropriate Code from the Lists.
           2
               The Social Security Act § 221(i), 42 U.S.C. § 421(i).
Page 2 - The Commissioner


disabled beneficiaries at least every 3 years, except where a finding has been made
that the claimant’s disability is permanent (reviews of permanent disability cases are
made at such times as the Commissioner determines appropriate). SSA considers the
beneficiaries’ probability of medical improvement in determining whether to perform
CDRs either by a mailed questionnaire or through a more extensive full medical review.
SSA managers can also use the diagnosis code to identify specific populations that may
have to be medically redetermined as a result of new legislation.

Our March 2000 report, Reliability of Diagnosis Codes Contained in the Social Security
Administration’s Data Bases (A-01-99-61001), stated that payment records for
1.49 million 3 disabled individuals contained missing, invalid, or unestablished diagnosis
codes. In response, SSA sent letters to the disability determination services 4 (DDS)
emphasizing the importance of entering valid and specific codes.

RESULTS OF REVIEW
While we found that diagnosis codes for approximately 5.5 percent 5 of disabled
beneficiaries or recipients were missing, invalid, or unestablished, the number of
records with these errors had declined significantly over the past 10 years. We
determined that, as of February 2009, 814,425 disabled beneficiaries in current
payment status had records that contained missing, invalid, or unestablished diagnosis
codes. The total number of records with these errors declined by about 45 percent,
while the percentage of disabled individuals whose records contained these errors fell
by about 57 percent compared with errors identified in our March 2000 review.




3
 This represented approximately 12.8 percent of the 11.7 million disabled individuals eligible for
payments as of September 1998.
4
  The primary mission of DDSs is to provide disability applicants with accurate and timely disability
determinations. Most disability claims are decided by the DDSs in the State or other responsible
jurisdiction where the worker resides.
5
 Based on 814,425 payment records with missing, invalid, or unestablished diagnosis codes divided by
14.9 million disability beneficiaries or recipients as of February 2009.
Page 3 - The Commissioner


             Summary of Missing, Invalid, or Unestablished Diagnosis Codes
       Diagnosis Code          Number of Records-             Number of Records-          Percentage
          Category                Prior Review                  Current Review             Decrease
                                                                                 6
    Missing                              779,862                       236,168                   70
    Invalid                              518,707                       393,909                   24
                  7
    Unestablished                        193,906                       184,348                    5
    Total                              1,492,475                       814,425                   45

Our review also indicated that disability entitlement for more than 70 percent of the
records that currently contain missing, invalid, or unestablished diagnosis codes was
established before we issued our March 2000 report. Further, in 12 percent of cases
reviewed, we found that diagnosis code errors that appeared on payment records when
we obtained our data file in February 2009 had a valid code in the DCF in early 2010.

•     In 6 of 150 cases reviewed, SSA corrected the diagnosis code error during the audit.

•     In 12 of 150 cases reviewed, erroneous diagnosis codes appeared on the
      individual’s payment record at the same time valid diagnosis codes appeared on the
      individual’s DCF record. An electronic interface should ensure that diagnosis codes
      on the DCF are reflected on SSA’s payment records. While our review indicated the
      MBR interface generally functioned correctly, an SSA official acknowledged the SSR
      interface was not working properly so diagnosis code information in the DCF was not
      always accurately reflected on the SSR.

Based on a recent review of internal processes, an SSA official observed that the
overall accuracy of diagnosis code inputs appeared to be excellent. The official stated
that for the first half of Fiscal Year 2010, the diagnosis code input accuracy rate for
DDSs was about 99.8 percent. Based on his analysis, the SSA official determined that
a relatively high number of diagnosis code input errors appeared to have been made by
DDS staff in a few States. One contributing factor is that DCF system controls do not
prevent use of invalid diagnosis codes. Instead, the system accepts any four-digit code
input by DDS staff. We believe SSA could further reduce the number of missing,
invalid, or unestablished diagnosis codes by addressing this control weakness.




6
  Includes 9,590 records (4 percent of this group) for individuals receiving presumptive disability payments
when we obtained our data file. After we issued our preliminary draft report, SSA officials requested
examples of missing diagnosis codes associated with recently approved SSI disability claims. In
responding to their request, we identified these presumptive disability records in our data file. The
presumptive payment program helps needy claimants meet their basic living expenses while their
applications for SSI payments are processed. Under the program, SSA can grant up to 6 months of
payments before obtaining the disability determination. Therefore, it was appropriate in these instances
that no diagnosis code appeared in SSA’s records.
7
 Refers to diagnosis codes 2480 (Diagnosis Established–No Predetermined List Code of Medical Nature
Applicable) and 6490 (None Established–Medical Evidence in File but Insufficient to Establish Diagnosis).
Page 4 - The Commissioner


The SSA official further stated that diagnosis codes are among a limited number of
available data elements that provide the body of information available for every disability
case adjudicated by SSA. These limited data are used to help uniformly manage and
administer a national disability program to support essential research for changes in the
process (such as disability listing updates) and provide data to various monitoring
authorities, including the Congress. Since the body of available data is so limited, the
accuracy of the data is critical.

CONCLUSION AND RECOMMENDATIONS
We commend SSA for its progress in reducing instances of missing, invalid, or
unestablished diagnosis codes and encourage the Agency to continue making strides in
reducing the frequency of these errors. Payment records should accurately reflect the
establishment of a condition that entitles an individual to disability payments. In
addition, input of valid diagnosis codes helps to better ensure the accuracy of national
disability statistics. As a result, we recommend SSA consider implementing controls
during future systems updates that:

1. Enhance communication between the SSR and the DCF to ensure accurate
   diagnosis codes are reflected on both systems.

2. Allow use of only valid four-digit diagnosis codes.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with Recommendation 2 but disagreed with Recommendation 1. SSA
stated that today’s health information technology (HIT) business rules do not coincide
with SSA’s current four-digit coding conventions. Instead, HIT utilizes international
classification of diseases (ICD-10) coding standards with diagnosis codes up to
10 characters long. SSA is in the planning stage for the conversion to ICD-10
standards to comply with Department of Health and Human Services’ mandates. SSA
plans to incorporate similar requirements into its Disability Case Processing System.
SSA acknowledged that enhancing communication between the SSR and DCF might be
beneficial but stated it did not plan to re-direct resources from the ICD-10 conversion for
this purpose. However, SSA also stated it would work to ensure the SSR and the MBR
interface properly with the DCF. We believe timely completion of the ICD-10 conversion
with an appropriate SSR, MBR, and DCF interface would address our
recommendations. We will monitor SSA’s progress to ensure these actions are
completed timely and effectively. The full text of SSA’s comments is included in
Appendix C.




                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                    Appendix A

Acronyms
CDR      Continuing Disability Review
DCF      Disability Control File
DDS      Disability Determination Services
ICD-10   International Classification of Diseases
HIT      Health Information Technology
MBR      Master Beneficiary Record
SSA      Social Security Administration
SSI      Supplemental Security Income
SSR      Supplemental Security Record
U.S.C.   United States Code
                                                                      Appendix B

Scope and Methodology
To accomplish our objectives, we:

•   Reviewed the Social Security Administration’s (SSA) policies and procedures
    governing the use of diagnoses codes.

•   Interviewed SSA Headquarters staff regarding the use of diagnoses codes.

•   Reviewed prior Office of the Inspector General reports related to diagnoses codes in
    SSA’s databases.

•   Obtained data from SSA’s payment records as of February 2009. We identified
    814,425 records in current payment status that contained invalid or unestablished
    diagnosis codes. We separated these records into 3 groups and statistically
    selected 50 records from each group:

       420,516 records where the disabled individual’s primary diagnosis code was
        either missing (0000 or blank) or unestablished (2480 or 6490);

       390,490 payment records where the disabled individual’s primary diagnosis code
        was either 0010 or 0001; and

       3,419 payment records where the disabled individual’s primary diagnosis code
        was 1 of 304 invalid codes other than 0010 or 0001.

•   For each sampled record, we compared diagnosis codes that appeared on the
    disabled individuals’ payment records with codes that appeared on the Disability
    Control File.

•   Interviewed SSA disability specialists to obtain an understanding of the
    appropriateness of various diagnosis codes and determine how diagnosis codes
    would impact the profiling of medical redeterminations.

We conducted our audit between November 2009 and April 2010 in Dallas, Texas. We
tested the data obtained for our audit and determined them to be sufficiently reliable to
meet our objective. The entity audited was the Office of Disability Programs under the
Office of Retirement and Disability Policy. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      November 23, 2010                                                      Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor
           to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, "Accuracy of Diagnosis Codes in the Social
           Security Administration’s Databases" (A-06-09-19128)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see the attached response to your
           findings and recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.

           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“ACCURACY OF DIAGNOSIS CODES IN THE SOCIAL SECURITY
ADMINISTRATION’S DATABASES” (A-06-09-19128)


Thank you for acknowledging and commending us for our progress in reducing instances of
missing and invalid diagnosis codes. Our overall accuracy is now excellent, and as you state,
more than 70 percent of diagnosis code errors relate to cases you identified originally in your
March 2000 report, Reliability of Diagnosis Codes Contained in the Social Security
Administration’s Data Bases (A-01-99-61001).

INFORMATIONAL COMMENT

Today’s heath information technology (HIT) business rules do not coincide with our current
four-digit coding conventions. Instead, HIT utilizes international classification of diseases,
ICD-10, coding standards -- and the codes themselves may be up to ten characters long. We are
in the planning stage for the conversion to ICD-10 standards to comply with Department of
Health and Human Services’ mandates. We will incorporate similar requirements into our
Disability Case Processing System.

RESPONSES TO RECOMMENDATIONS

Recommendation 1

Enhance communication between the SSR and the DCF to ensure accurate diagnosis codes are
reflected on both systems.

Response

We disagree. As noted above, we are transitioning to ICD-10 standards, and ICD-10 will
eventually supplant our current diagnosis code standards. As we proceed with ICD-10, we will
work to make sure that the Supplemental Security Record (SSR) and Master Beneficiary Record
interface properly with the Disability Control File (DCF).

We recognize that legacy data in the DCF will continue to exist as it does today and that it might
be beneficial to enhance communication between the SSR and DCF. However, if we focus on
making those enhancements, we may have to redirect resources assigned to ICD-10 efforts. It
may not be desirable for us to redirect those resources, especially considering that our current
accuracy rate is very high.




                                               C-2
Recommendation 2

Allow use of only valid four-digit diagnosis codes.

Response

We agree. In December 2009, we began implementation of our electronic case analysis tool
(eCAT), a web-based application that State disability determination services (DDS) use in the
disability adjudication process. DDSs use eCAT to document detailed analysis and rationale for
either allowing or denying claims. As of September 30, 2010, we had implemented eCAT in
37 sites; we expect full rollout by May 2011. The eCAT application links to a global reference
table that effectively limits users to entering only valid four position diagnosis codes. In fact,
eCAT has already contributed to our increased accuracy in this area.




                                               C-3
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ronald Gunia, Director, Dallas Audit Division

   Jason Arrington, Audit Manager

Acknowledgments

In addition to those named above:

   David McGhee, Senior Auditor

For additional copies of this report, please visit our Website at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification NumberA-06-09-19128.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
